tarn

Supreme Court of the United States
Docket No.
Heather Stanton (F/K/A
Heather Sembrat,
Respondent,

Civil Action
On Petition for Writ of Certification to
the Supreme Court of New Jersey
Docket No. 084595

v.

Kevin Sembrat,

Petition for Writ of Certiorari

Petitioner-Appellant.
Sat Below:
Honorable Stuart Rabner, Chief Justice
at Trenton, September 9, 2020

..... r\n jA :

!;: M

f» L ” L ,S\-i ';V\ ^

PETITION FOR WRIT OF CERTIORARI ■' H i- V H ■: \ }] j.-i I V ; I

Kevin A. Sembrat, Esquiri :
Counsel of Record+
and Petitioner, pro se
P.O.Box 273
LEDGEWOOD, NJ 07852
(908) 528-3047

FILED
DEC 0 7 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

KEVINSEMBRATX@GMAIL.COM

tMember of the Bar of the
Supreme Court of the United States

1°

u

QUESTION(S) PRESENTED
1. Whether, in violation of the Due Process Clause of the Fourteenth
Amendment to the U.S. Constitution, as well as The Civil Rights
Act of 1871 "Section 1983" Statute, 42 U.S.C. § 1983, Petitioner was
unconstitutionally deprived of his $3,800 property without due
process of law after being victimized by Respondent's theft of
Petitioner's $3,800, wherein Respondent was illegally given access
to Petitioner’s $3,800 by the Trial Court breaching its fiduciary
duty to safeguard Petitioner's $3,800, and wherein thereafter the
Trial Court breached its duty against impropriety and for
impartiality, as specified in the New Jersey Code of Judicial
Conduct, CANON 2, and Rule 2.1, with an agreement-breaching
credit and related ‘made-up’ language that improperly advocated on
behalf of Respondent’s and her theft?

-i-

/

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of
this Petition is as follows:

RELATED CASES
No related cases outside of the subject Trial Court case and subsequent appeals
to the Appellate Court and Supreme Court of New Jersey, included herein.

-ii-

TABLE OF CONTENTS
Pase
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-6

REASONS FOR GRANTING THE WRIT ..

7-10

CONCLUSION

11

(PROOF OF SERVICE)

12

INDEX TO APPENDICES
APPENDIX A - Supreme Court of New Jersey,
Denial of Certification dated September 9, 2020

APPENDIX B - Superior Court of New Jersey, Appellate Division,
Opinion dated May 22, 2020

APPENDIX C - Superior Court of New Jersey, Chancery Division,
Family Part, Hunterdon County, Opinion dated April 13, 2018

APPENDIX D - Superior Court of New Jersey, Chancery Division,
Family Part, Hunterdon County, Opinion dated July 1, 2019

- iii -

TABLE OF AUTHORITIES CITED
Pase No.
CONSTITUTION
U.S. Constitution, Due Process Clause of the Fourteenth Amendment. .7, 8, 9, 10
STATUTES AND RULES
42 U.S.C. § 1983, The Civil Rights Act of 1871 "Section 1983" Statute ... .7, 8, 10
N.J. Stat. § 2C:20-3: Theft by Unlawful Taking or Disposition

8, 10

OTHER
New Jersey Code of Judicial Conduct,
CANON 2, Rule 2.1..............................

8, 9

-iv-

IN THE
\

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States Court of Appeals appears at
Appendix____ to the petition and is
[ ] reported at_________ ,______________________________ or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States District Court appears at
Appendix____ to the petition and is
[ ] reported at______________________________________
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished. [Cert Denied.]
The opinion of the Superior Court of New Jersey, Appellate Division, to
review the merits appears at Appendix_B__to the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished, “Not for Publication Without the Approval of the
Appellate Division, Docket No.A-5389-1873 (N.J. Super, May 22,
2020).”
-1 -

JURISDICTION
[ ] For cases from federal courts:
The opinion of the United States Court of Appeals decided my case
was___________________________.
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States
and a
Court of Appeals on the following date________________
copy of the order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for writ of certiorari was
(date) on
granted to and including
(date) in Application No.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

[X] For cases from state courts:
The date on which the highest court decided my case was September 9,
2020. A copy of that decision appears at Appendix A .
[ ] A timely petition for rehearing was thereafter denied on the
and a copy of the order denying
following date______________
rehearing appears at Appendix
[ ] An extension of time to file the petition for writ of certiorari was
(date) on
granted to and including
(date) in Application No.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

A- 2 -

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. Constitution, Due Process Clause of the Fourteenth Amendment
42 U.S.C. § 1983, The Civil Rights Act of 1871 "Section 1983" Statute,
New Jersey’s Criminal Code, N.J. Stat. § 2C:20-3: Theft by Unlawful Taking or
Disposition.

-3-

STATEMENT OF THE CASE
The issue before this Supreme Court began as an extraordinarily simple
“1-L” (first-year law student) agreement... gone terribly awry.
During a 4/13/18 Trial Court Hearing, Respondent refused to release her
financial records as Court-mandated in preparation for an upcoming scheduled
plenary hearing. The Trial Court advised she must do so unless she could reach
agreement with Petitioner not to release her financial records. As such,
Respondent met with Petitioner and the Judge’s capable Law Clerk. Thereafter,
Respondent entered into such “simple” agreement, thereby to resolve “all
outstanding issues...at the scheduled plenary hearing on May 29, 2018” as
memorialized in the 4/13/18 Court Order. (Appendix C, If8).
Significantly, Petitioner benefited from that agreement by avoiding having
any arrears payback while paying mandated Support until the parties’ youngest
son’s emancipation in 2021. Concurrently, Respondent benefited from that
agreement by avoiding disclosure of her financial records, thereby successfully
keeping secret from Petitioner mortgage deposit funds with which she intended
to buy a house. Sure enough, only six months later on 10/12/18, Respondent did
secure a $183,658 Mortgage using her ‘agreement benefit’ of a successfully
hidden $6,342 down payment on a $190,000 house that exceeds three times her
annual salary.
The aforementioned simplicity was provided by the Trial Court, who
drafted the clear and concise expertly-worded 14-word sentence, “Defendant’s

-4-

arrears payback shall be set at $0, to be revisited upon Schafer’s emancipation”
(Appendix C, ^3), effectively conveying the agreement between the parties.
At the same time, the Trial Court instructed the Trial Court’s Probation
Division (hereinafter “Probation”) within that Court Order, “The Probation
Department shall update its records to reflect

[Petitioner] shall not be

required to make any payments toward his arrears until [the parties’ youngest
son] Schafer’s emancipation [i.e. some 3 years hence].” (Appendix C, ^[23)
Thereafter, “terribly awry” was provided by Probation. Probation
repeatedly failed to obey the Trial Court’s Order to update its records, including
its state-wide database that is checked by all New Jersey courts prior to
distribution of litigation/settlement funds, as herein. As a result, Probation
subsequently misappropriated Petitioner’s $3,800. Additionally, Probation
breached its fiduciary duty to protect against misappropriation of any party’s
funds.
To further complicate the subject simple agreement, when Respondent
discovered around 5/15/19 that she did receive the deposit [i.e. Petitioner’s
$3,800] in her checking account from the court. Respondent failed to honor her
agreement of $0 arrears payback until Schafer’s emancipation, as conveyed with
simple language provided by the Trial Court.
Instead, Respondent kept the $3,800; moreover, when queried under oath
by the Trial Court during a 6/28/19 Hearing wherein Petitioner sought return of
said $3,800, Respondent claims to have spent it.

-5 -

The Trial Court opted to deny Petitioner’s request to compel Respondent to
reimburse Petitioner $3,800, reasoning in its Statement of Reasons that
“[Petitioner] received the necessary credit for this payment.” (Appendix D, page 4
lines 8-9). Herein, Petitioner respectfully submits that this ‘credit’ from the Trial
Court made complex the simplicity of the agreement otherwise initially provided
by the Trial Court.
Petitioner appealed. The Appellate Court opted to “defer in great measure
to the Family Part” (Appendix B) - idiomatically putting the fox who stood
accused of eating the chickens BACK IN CHARGE of guarding the henhouse.
Finally, the Supreme Court of New Jersey denied Petitioner’s petition for
certification with two additional errors not previously presented: 1) when
Respondent kept the subject $3,800, she met all of the elements of Theft by
unlawful taking or disposition, N.J. Stat. § 2C:20-3; and 2) the Trial Court erred
by breaching its duty of impartiality under Canon 2 and Rule 2.1 of the New
Jersey Code of Judicial Conduct. Petitioner submitted that both such other errors
not previously presented are reviewable.

-6-

REASONS FOR GRANTING THE PETITION
Petitioner respectfully asserts that in violation of the Due Process Clause
of the Fourteenth Amendment to the U.S. Constitution, as well as The Civil
Rights Act of 1871 "Section 1983" Statute, 42 U.S.C. § 1983, Petitioner was
unconstitutionally deprived of his $3,800 property without due process of law
after being victimized by Respondent's theft of Petitioner's $3,800.
In this case, Respondent was illegally given access to Petitioner's $3,800 by
the Trial Court breaching its fiduciary duty to safeguard Petitioner's $3,800.
Thereafter, the Trial Court inappropriately bastardized Petitioner's written
agreement with Respondent by the Trial Court through improper and
erroneously crediting Petitioner’s arrears account with the $3,800 stolen by
Respondent - as if the agreement between the parties that specified “no arrears
payback pending Schafer’s emancipation” somehow also included new language
made-up by the Trial Court that enabled the Trial Court to credit Petitioner’s
arrears account with the $3,800 stolen by Respondent!
Petitioner respectfully asserts that, in violation of the Due Process Clause
of the Fourteenth Amendment to the U.S. Constitution, as well as The Civil
Rights Act of 1871 "Section 1983" Statute, 42 U.S.C. § 1983, such a credit by the
Trial Court is not part of the agreement between the parties, and such a credit by
the Trial Court unconstitutionally deprived Petitioner of his $3,800 property
stolen by the Respondent without due process of New Jersey’s Criminal Code,

-7-

particularly N.J. Stat. § 2C:20-3 entitled Theft by Unlawful Taking or
Disposition, to wit:
2C:20-3 Theft by unlawful taking or disposition
a. Movable property. A person is guilty of theft if he unlawfully
takes, or exercises unlawful control over, movable property of
another with purpose to deprive him thereof.

In fact, such a credit essentially characterized the stolen $3,800 as an
unauthorized “arrears payment” in violation of the clear language “... [Petitioner]
shall not be required to make any payments toward his arrears until [the parties’
youngest son] Schafer’s emancipation [i.e. some 3 years hence].” (Appendix C
1123).
Moreover, Petitioner respectfully asserts that such an unauthorized credit
by the Trial Court constituted advocacy on behalf of Respondent that clearly was
'not impartial', despite violation of that Trial Court's declaratory decree
(Appendix C, 1J3) and N.J. Stat. § 2C:20-3a ('Theft by Unlawful Taking or
Disposition').
Further, declaratory relief was available in the form of the Trial Court
admitting erroneous misappropriation of Petitioner's $3,800 to Respondent and
ordering proper return of said $3,800 to Petitioner. However, instead, Petitioner
respectfully asserts that the Trial Court breached the New Jersey Code of
Judicial Conduct, CANON 2 ("A judge shall avoid impropriety and the
appearance of impropriety.") and Rule 2.1 Promoting Confidence in the Judiciary

-8-

("A judge shall act at all times in a manner that promotes public confidence in ...
impartiality of the judiciary..."), improperly advocating with a made-up credit for
Respondent to keep the stolen $3,800 after improperly, erroneously, and 'not
impartially’ unilaterally crediting Petitioner's arrears account with the stolen
$3,800. Such a made-up credit by the Trial Court freshly characterized - similar
to an illegal ‘money laundering’ of sorts - the stolen $3,800 as an unlawful
'arrears payment' in violation of the Trial Court's declaratory decree, depriving
Petitioner of the benefit secured by agreement of having $0 arrears payback until
the parties' youngest son's emancipation in 2021.
In response to Petitioner’s appeal, the Appellate Court essentially ignored
the merits of Petitioner’s issue, opting instead to rule merely on a non-issue
("Respondent did nothing to cause the $3,800 intercept." (Appendix B). Such non­
issue relating to whether Respondent did anything or nothing to cause the $3,800
is not relevant to the fact that Respondent stole Petitioner’s $3,800 property once
Respondent had access to said $3,800 - without regard to who actually caused
Respondent to have access to the $3,800 intercept.
Instead, the Appellate Court opted to remain silent about Petitioner's
raised Trial Court errors, and further, seemingly without regard to those raised
Trial Court errors, deferred “in great measure to the Family Part" (Appendix B).
Petitioner respectfully asserts that, in violation of the Due Process Clause
of the Fourteenth Amendment to the U.S. Constitution, as well as The Civil

-9-

Rights Act of 1871 "Section 1983" Statute, 42 U.S.C. § 1983, the Appellate
Court’s silence as to Petitioner’s raised Trial Court errors and deferral “in great
measure to the Family Part" (Appendix B) unconstitutionally deprived Petitioner
of his $3,800 property stolen by the Respondent without due process of New
jersey’s Criminal Code, particulai'ly N.J. Stat. § 2C:20-3 entitled Theft by
Unlawful Taking or Disposition.
The Supreme Court of New Jersey denied Petitioner’s Petition for
Certification.
Petitioner was deprived by both the Trial Court and the Appellate Court of
proper redress and due process including criminal prosecution of Respondent for
theft of Petitioner's $3,800 property, as well as the rightful return of Petitioner’s
$3,800 property by Respondent to Petitioner. The Supreme Court of New Jersey's
mere denial of Petitioner's Petition for Certification completed Petitioner's
deprivation of proper redress and due process. Petitioner turns to this "court of
last resort", this honorable Supreme Court of the United States, for remand,
thereby to restore Petitioner's unconstitutional deprivation of proper redress and
due process Due Process Clause of the Fourteenth Amendment to the U.S.
Constitution and the "Section 1983" Statute.

-10-

CONCLUSION

Petitioner therefore respectfully asks this honorable Supreme Court to
grant a writ of certiorari. Oral Argument is hereby respectfully requested.

Respectfully submitted,

Date:
Kevin A. Sembrat, Esquire
Counsel of Record!
Petitioner, pro se
P.O. Box 273
Ledgewood, NJ 07852
(908) 528-3047
kevinsembratx@gmail.com
+Member of the Bar of the
Supreme Court of the United States

-11 -

